No. 19-7

 

IN THE

Supreme Court of the United States

SEILA LAW LLC,
Petitioner,
Vv.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF THE MORTGAGE BANKERS
ASSOCIATION, THE NATIONAL ASSOCIATION
OF HOME BUILDERS, AND THE NATIONAL
ASSOCIATION OF REALTORS® AS AMICI
CURIAE IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,637 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 16, 2019.

 

Colin Casey Hogan
Wilson-Epes Printifg Co., Inc.
